PRICING ADDENDUM FOR DILLARD’S CREDIT CARD AGREEMENT
As of February 13, 2021
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

U.S. Prime Rate + 21.74%

How to Avoid Paying Interest
on Purchases
Minimum Interest Charge
Fees
Annual Fee
Penalty Fees
• Late Payment

This APR will vary with the market based on the U.S. Prime Rate (“Index Rate”).

Your due date is at least 23 days after the close of each billing cycle. We will not charge you any interest
on purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.00.

None
Up to $40.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Agreement.
How We Will Calculate Your Late Payment Fee: The fee will be the lesser of the Total Minimum Payment Due or $29.00. For any subsequent
event within a rolling six billing cycle period, the fee will be the lesser of the Total Minimum Payment Due or $40.00.
How We Will Calculate Your Variable APRs: The APR used to figure interest for purchases on your Account is figured by adding a margin
of 21.74 percentage points to the U.S. Prime Rate for that Billing Cycle. This rate varies with the market based on the U.S. Prime Rate. See
your Agreement for more details.
The information about the cost of credit described in this Agreement is accurate as of February 2021. This information may have changed
after that date. To find out what may have changed, call us at 1-800-643-8278.
Variable Interest Rate Calculation
Index Rate effective as of 01/01/2021

3.25%

Margin added to the Index Rate to determine your APR for Purchases

21.74%

APR for Purchases

24.99%

1 of 5

6102OA DILLARDS PL 0221

DILLARD’S CREDIT CARD AGREEMENT
Notice to California Cardmembers
To our California customers who have discussed credit card terms and conditions with
us in Spanish, Chinese, Korean, Vietnamese, or Tagalog:
Read the section titled INTERPRETER CERTIFICATION before you use your Account.
Lean la sección titulada CERTIFICACIÓN DE INTÉRPRETE antes de usar su Cuenta.
請您在使用您的帳戶之前閱讀標題為「翻譯員認證」的章節。
계좌를 사용하시기 전에 “통역사 증명” 항목을 읽으시기 바랍니다.
Hãy đọc phần có tựa đề XÁC NHẬN VỀ THÔNG DỊCH VIÊN trước khi quý vị sử dụng
Trương mục của mình.
Basahin ang seksiyong may pamagat na SERTIPIKASYON NG TAGAPAGSALING-WIKA
bago mo gamitin ang iyong Account.
These terms apply to your entire Account.
About Your Account
AGREEMENT. This Credit Card Agreement (“Agreement”) covers the use of your Credit
Card Account (“Account”) with us. It includes the Important Terms of Your Credit Card
Account. You accept the terms of this Agreement by opening or using your Account.
Your signature on your application or solicitation for this Account, including without
limitation any electronic or digital signature, as well as your signature on Sales Slips or
any Account-related document, represents your signature on this Agreement. Please
read this Agreement carefully and save it for future reference.
PARTIES TO THIS AGREEMENT. This Agreement is made between Wells Fargo Bank,
N.A., P.O. Box 10347, Des Moines, IA 50306 (“we,”“us,” and “our”) and the account holder
(“you” and “your”).
CONTACTING US. Unless stated otherwise in this Agreement, you may contact us at
the phone number or address shown on your statement.
DEFINITIONS.
Billing Cycle

The interval between statements. Each statement shows a
closing date. The statement closing date is the last day of the
Billing Cycle for that statement.

Card

The credit card we may issue to use your Account.

Important Terms
A summary of your Account’s Annual Percentage Rates (“APRs”),
of Your Credit Card fees and other important information.
Account
New Balance

The Outstanding Balance as of a statement closing date.

Outstanding
Balance

The sum of all unpaid amounts, including purchases, interest,
fees and any other amounts that you may owe us.

Payment Address

The address where you mail your payment. It is located on your
Payment Stub.

Payment Due Date The date the Total Minimum Payment Due is due to us. It is
shown on your statement.
Payment Stub

The portion of your statement that is to be returned with your
payment.

Sales Slip

Any document that describes the terms of a purchase on the
Account.

OVERVIEW OF ACCOUNT. Your Account may be divided into two or more balances.
Different terms may apply to different balances.
USING YOUR ACCOUNT. You may use your Account for purchases from Dillard’s
locations, including Dillard’s website. Purchases will be part of the regular balance
unless a Dillard’s Sales Slip shows that Club Plan terms apply. If Club Plan terms apply,
the purchase will be part of a Club Plan balance. Club Plans are described later in this
Agreement (see Club Plans section).
You promise that you will use your Account only for lawful personal, family or household
purposes.
PROMISE TO PAY. When you use your Account, or let someone else use it, you promise
to pay the total amount of the purchase, as well as any interest, fees or other amounts
that you may owe us. We may limit or close your Account, but the terms of this
Agreement will apply until you pay the Account in full.
CREDIT LIMIT. We will assign a Credit Limit to your Account. A Credit Limit is the amount
of credit we will extend to your Account. Your Credit Limit is provided with your Card and
on each of your statements. You promise to use your Account only to the Credit Limit.
If you exceed your Credit Limit, we may authorize the transaction without increasing
your Credit Limit. If you exceed your Credit Limit, you will remain liable for all amounts
payable under this Agreement. We can adjust your Credit Limit at any time.
Fees and Interest
FEES. You agree to pay the following fees. You will find the fee amounts in the Important
Terms of Your Credit Card Account.
• Late Payment Fee. This fee may be charged each time we do not receive the Total
Minimum Payment Due by the Payment Due Date. This fee will be charged to your
regular balance.
INTEREST RATES. The daily periodic rates are calculated by dividing each applicable
APR by 365. The APRs used to figure interest on balances are shown in the Important
Terms of Your Credit Card Account.

PRIME RATE. The Prime Rate we use is the U.S. Prime Rate published in the Money
Rates section of The Wall Street Journal. We select the Prime Rate published on the first
business day of the month preceding the month of the quarterly rate change date. If
more than one Prime Rate is published, we will use the average of the Prime Rates. If
the Prime Rate is no longer published or is not available, we may select a similar rate.
The APR will increase or decrease if the Prime Rate increases or decreases and this
will also cause the daily periodic rate to increase or decrease. An increase or decrease
in the APR will increase or decrease the total amount of interest you pay. It may also
increase or decrease the Total Minimum Payment Due. The rate change date for each
quarter is the first day of the first Billing Cycle beginning on or after January 1, April 1,
July 1, and October 1.
WHEN WE CHARGE INTEREST. Unless stated otherwise below, we begin charging
interest on a purchase or interest charge on the date the purchase or interest charge
posts to your Account. We begin charging interest on a fee on the first day of the Billing
Cycle following the Billing Cycle in which the fee posts to your Account. However, if a
late payment fee is posted to your Account in the current Billing Cycle, but is related
to a late payment in the prior Billing Cycle, we will begin charging interest on the fee
on the first day of the current Billing Cycle.
HOW TO AVOID PAYING INTEREST ON PURCHASES. Except as described in the Club
Plans section below, to avoid paying interest on new Purchases you have to pay your entire
New Balance by the Due Date on your statement each Billing Period.
HOW WE CALCULATE INTEREST—AVERAGE DAILY BALANCE METHOD
(INCLUDING NEW PURCHASES). The total interest charge is the sum of interest
charges for each type of balance on your Account (e.g. regular balance). We figure the
interest charge for each type of balance on your Account by applying the daily periodic
rate to the average daily balance (“ADB”). Then, we multiply this amount by the number
of days in the Billing Cycle.
Interest charge = daily periodic rate x ADB x number of days in the Billing Cycle.
ADBs for each type of balance are calculated separately, starting with the beginning
balance on the first day of each Billing Cycle. The beginning balance on the first day of
the Billing Cycle includes the following:
• The prior Billing Cycle’s ending balance, which includes any unpaid fees posted to
your Account in the prior Billing Cycle.
• Any late payment fees posted in the current Billing Cycle that are related to a late
payment in the prior Billing Cycle.
To get the ADB for each type of balance, we take the beginning balance each day and
add any new purchases. Except for the first day of each Billing Cycle, we add interest
equal to the previous day’s balance multiplied by the daily periodic rate. (This means
interest is compounded daily.) Then, we subtract any payments or credits. This gives
us the daily balance. Any daily balance that is a credit balance will be treated as zero.
Then, we add up all the daily balances for the Billing Cycle. We divide this amount by
the number of days in the Billing Cycle. This gives us the ADB.
ADB = sum of daily balances ÷ number of days in the Billing Cycle.
MINIMUM INTEREST CHARGE. If you are charged interest in a Billing Cycle, the charge
will be no less than $1.00.
Payments
TOTAL MINIMUM PAYMENT DUE. You promise to pay the Total Minimum Payment
Due by the Payment Due Date. The Total Minimum Payment Due is the greater of (A)
or (B), plus (C):
(A) $29.00 (or $40.00 if we do not receive the Total Minimum Payment Due by the
Payment Due Date in any one of the prior six Billing Cycles)
(B) The sum of:
• Any past due amounts; plus
• Any fees assessed during the current Billing Cycle; plus
• 1% of the new balance (excluding any Club Plan balance); plus
• The sum of any interest charges in the current Billing Cycle
(C) The payment(s) for any Club Plan 12 or Club Plan 24 balances (see Club Plans
section).
The Total Minimum Payment Due will never be more than the New Balance. If you pay
more than the Total Minimum Payment Due but less than the Outstanding Balance,
you are still required to pay the Total Minimum Payment Due in the next Billing Cycle.
PAYMENT INSTRUCTIONS. Follow these instructions when making a payment:
• Make your payment in U.S. dollars, but do not send cash.
• If you make a payment by mail, please include the Payment Stub with your payment.
Use the envelope enclosed with your statement to mail both documents to the
Payment Address. Payments received by 5:00 p.m. local time at the Payment Address
will be credited as of the date of receipt. Payments received after the 5:00 p.m. cut-off
time will be credited as of the next day. When you provide a check as payment, you
authorize us either to use information from your check to make a one-time electronic
fund transfer from your account or to process the payment as a check transaction.
When we use information from your check to make an electronic fund transfer, funds
may be withdrawn from your account as soon as the same day we receive your
payment, and you will not receive your check back from your financial institution.
Your billing statement also explains how information on your check is used.
• If you make a payment online, it must be made via Dillard’s website, which is shown
on your statement. The cut-off time for online payments will be disclosed at the time
of the transaction.

2 of 5

6102OA DILLARDS PL 0221

• You also can make a payment at a Dillard’s store. Payments received at the Dillard’s
store location where payment is made will be credited as of the date of receipt.
If you do not follow these instructions, your payments may not receive credit for up to
five days after we receive it. You may at any time pay, in whole or in part, the Outstanding
Balance without any additional charge for prepayment.
Some of your available line of credit may be held at our discretion, until your payment
is honored.
IRREGULAR PAYMENTS. We may accept late payments, partial payments or payments
that reflect “paid in full” (or other restrictive language), without losing our rights to
receive full payment. If you intend to claim to pay your Account in full with an amount
less than the Outstanding Balance, payments must be sent to us at Wells Fargo Bank,
N.A., P.O. Box 10311, Des Moines, IA 50306-0311.
APPLICATION OF PAYMENTS. We apply payment amounts equal to or less than the
Total Minimum Payment Due at our discretion. We apply any payment amounts in
excess of the Total Minimum Payment Due to balances with higher APRs before lower
APRs.
Any payment in excess of the Total Minimum Payment Due is applied based on the
balances reflected on your last statement. We post payments in the Billing Cycle they
are received.
Other Information
CANCELLATION. We may close your Account at any time and for any reason. You may
also close the Account at any time by contacting us. If that happens, you must still repay
the balance owed according to the terms of this Agreement. If we close the Account,
notice may be provided to only one account holder.
AUTHORIZED USERS. You may request additional Cards for authorized users. You are
responsible for all charges (including related interest and fees) made by the authorized
user. If you want to end an authorized user’s privilege to use your Account, before we
can process the request, you must:
• Recover and destroy that person’s Card. If you do not recover and destroy the Card,
you will continue to be liable for any charges made after you advised us of your wish
to cancel the privileges, unless you tell us to cancel all Cards and establish a new
Account for you.
• You must notify us of your request by contacting us at the phone number or address
shown on your statement.
In general, an authorized user is not obligated on this Account and is not liable for any
Outstanding Balance or any other charges made by you or by any other authorized
user. Each authorized user’s privilege ends automatically upon the death of all account
holders. If any person uses the Card, such use indicates his or her agreement to pay
us, and we may, at our discretion, pursue the person for payment of any Outstanding
Balance or any other charges they authorize. You agree to notify each authorized user
that they are subject to all applicable sections of this Agreement.
CONTACTING YOU. By providing us with any phone number, you are expressly
consenting permission to contact you at that number about all of your Wells Fargo
accounts. You give consent to allow us to contact your past, present and future phone
service providers to verify the information you have provided against their records.
You agree that your phone service providers may verify any phone numbers you have
supplied to the name, address, and status on their records. In order for us to service
your Account or to collect any amounts you may owe, you agree that we may contact
you using any contact information related to your Account, including any number (i)
you have provided to us, (ii) from which you called us, or (iii) which we obtained and
reasonably believe we can reach you. We may use any means to contact you. This may
include contact from companies working on our behalf to service your Accounts. This
may include automated dialing devices, prerecorded/artificial voice messages, mail,
e-mail, text messages and calls to your mobile, wireless or similar device or Voice over
Internet Protocol (VolP) service, or any other data or voice transmission technology.
You are responsible for any service provider charges as a result of us contacting you.
You agree to promptly notify us if you change any contact information you provide to
us. This includes your name, mailing address, e-mail address(es), or phone number(s).
PHONE MONITORING. We may monitor and record your phone calls with us.
LOST OR STOLEN CARDS AND LIABILITY FOR UNAUTHORIZED USE. You agree to
contact us immediately if your Card is lost or stolen or if you believe your Account is
being used without your permission. You may contact us at: 1-800-643-8278 or P.O. Box
10347, Des Moines, IA 50306. You agree to assist us in our investigation of the matter.
If you do this, you will not be held liable for the unauthorized use of your Account,
but you will be responsible for all use by anyone you give your Card to or allow to use
your Account.
DEFAULT. Your Account will be in default if any of the following occur:
• You fail to pay the Total Minimum Payment Due by the Payment Due Date.
• Any payment is dishonored.
• You violate the terms of this Agreement.
• You made an untrue statement on your application.
• You file for bankruptcy.
If your Account is in default, our rights include, but are not limited to, refusing to
authorize further transactions, closing your Account, and requiring the immediate
payment of the Outstanding Balance. If your Account is in default, you also agree to
pay our collection costs, attorney’s fees, and court costs.
GOVERNING LAW. Federal law and the laws of South Dakota govern this Agreement
and your Account.

CHANGE IN TERMS. We may change this Agreement at any time. These changes
may apply to existing and future balances. We will give you advance written notice
of the change(s) and a right to reject the change(s) if required by law. We may
require you to close your Account or take other actions if you reject the changes.
ENFORCING THIS AGREEMENT. We may waive or delay enforcing any of our rights
without losing them. We may waive or delay enforcing a right against one of you
without waiving it as to the other.
SEPARATION OF UNLAWFUL PROVISIONS. If any provision of this Agreement is
determined to be unlawful, the rest of the Agreement will stand and the unlawful
provision will be deemed amended to conform to law.
INFORMATION SHARING. When you applied for an Account, you gave us and Dillard’s,
Inc. information about yourself that we could share with each other. Dillard’s, Inc. will
use the information in connection with the credit program and for things like creating
and updating its records and offering you special benefits. Federal or state laws may
limit our ability to share your personal and/or Account information with Dillard’s, Inc.
even though you have given us this authorization. We comply with these federal and
state laws. Please refer to the Wells Fargo Bank, N.A. Dillard’s Privacy Notice for more
information about how we collect, share, and protect your information, as well as how
you may limit some, but not all, information sharing.
CREDIT INFORMATION. You promise that any information you give to us in connection
with your Account is true and complete. You understand that we rely on this information
to open your Account and extend credit to you. You authorize us to investigate your
credit, employment, assets, and income records and to verify your credit references.
You also authorize us to obtain credit reports on you from time to time.
INFORMATION REPORTING. You agree that we may report your performance,
status, and history under this Agreement to consumer reporting agencies. If you
request additional Cards on your Account for others, you understand that we may
report Account information in your name as well as in the names of those additional
cardmembers. If you fail to comply with the terms of the Account as defined in this
Agreement, it will be furnished to the credit reporting agencies and it could cause
a negative reference on your credit report and the credit reports of any additional
cardmembers. You have the right to dispute the accuracy of information that we have
reported by writing to us at Wells Fargo Bank, N.A., P.O. Box 14517, Des Moines, IA 50306
and describing the specific information that is inaccurate or in dispute and the basis for
any dispute with supporting documentation. In the case of information that you believe
relates to an identity theft, you will need to provide us with an identity theft report.
ASSIGNMENT. We have the right to assign your Account to another creditor. The other
creditor is then entitled to any rights we assign to them. You do not have the right to
assign your Account.
Club Plans
These terms apply to Club Plans.
CLUB PLANS. From time to time, certain Dillard’s purchases may qualify as a Club Plan
purchase. If a Sales Slip shows that Club Plan terms apply, then the purchase will be
governed by the Club Plan terms (described below) and the terms of this Agreement.
You accept the Club Plan terms by making the purchase.
• Club Plan 12. If a Sales Slip shows that Club Plan 12 terms apply, this means the
payment is the amount required to pay the initial purchase balance in full in 12
equal monthly payments. Because of rounding, the final payment could be less
than other payments.
• Club Plan 24. If a Sales Slip shows that Club Plan 24 terms apply, this means the
payment is the amount required to pay the initial purchase balance in full in 24
equal monthly payments. Because of rounding, the final payment could be less
than other payments.
• We will not charge you interest on a Club Plan 12 or Club Plan 24 balance. The
payment amount for any Club Plan 12 or Club Plan 24 balance(s) is included in the
Total Minimum Payment Due (see Total Minimum Payment Due section).
Interpreter Certification
INTERPRETER CERTIFICATION. THIS CERTIFICATION APPLIES IF YOU CHOSE TO
DISCUSS OPENING AN ACCOUNT WITH US IN SPANISH, CHINESE, KOREAN, VIETNAMESE,
OR TAGALOG. By signing the credit card application, using or otherwise accepting the
Card or related Account issued to you, you certify to Wells Fargo Bank, N.A. (us) that:
(1) You have received and discussed this Agreement with your interpreter and that
you and your interpreter have been given an opportunity to discuss with us the terms
and conditions contained in these enclosed documents; (2) Your interpreter is at least
18 years old and is fluent both in English and in the language in which you chose to
discuss with us the terms and conditions of your Account, and is not employed by or
made available through the Merchant; (3) You understand and agree to the terms and
conditions contained in these enclosed documents as written.
CERTIFICACIÓN DE INTÉRPRETE. ESTA CERTIFICACIÓN SE APLICA SI USTED ELIGIÓ
CONVERSAR CON NOSOTROS SOBRE LA APERTURA DE UNA CUENTA EN ESPAÑOL,
CHINO, COREANO, VIETNAMITA O TAGALO. Al firmar la solicitud de tarjeta de crédito,
utilizar o aceptar de otro modo la Tarjeta o la Cuenta relacionada que se le haya
otorgado, usted certifica a Wells Fargo Bank, N.A., (nosotros) que: (1) Usted ha recibido
y analizado este Contrato con su intérprete, y que usted y su intérprete han tenido la
oportunidad de analizar con nosotros los términos y condiciones contenidos en estos
documentos adjuntos; (2) Su intérprete tiene por lo menos 18 años de edad y habla con
fluidez en inglés y en el idioma en el que usted haya elegido analizar con nosotros los
términos y condiciones de su Cuenta, y no es un empleado ni ofrece sus servicios a través
del Comerciante; (3) Usted entiende y acepta los términos y condiciones contenidos en
estos documentos adjuntos tal como se encuentran redactados.

3 of 5

6102OA DILLARDS PL 0221

翻譯員認證。本認證於當您選擇以西班牙語、中文、韓語、越南語或塔加拉族語
與我們討論開戶事宜之時適用。一旦您簽署信用卡申請表，使用或以其他方式接
受核發給您的信用卡或相關帳戶，即表示您向富國銀行 (Wells Fargo Bank, N.A.)（
我們）證明：(1) 您已經收到並與您的翻譯員討論過本協議，並且您和您的翻譯
員都有機會與我們討論這些所附文件中的條款和條件；(2) 您的翻譯員至少年滿
18 歲，並具有流利的英語能力且深諳您所選與我們討論您的帳戶條款和條件的語
言，且其並未受僱於商家或由商家提供；(3) 您理解並同意遵守這些所附文件中的
書面條款和條件。
통역사 증명. 이 증명은 계좌 개설에 관한 사항을 스페인어, 중국어, 한국어,
베트남어 또는 타갈로그어로 논의하기로 하신 경우에 적용됩니다. 신용카드
신청서에 서명하시고, 회원님께 발급된 신용카드 또는 관련 계좌를 사용하거나
수락하시는 것은 회원님께서 (1) 본 계약서를 수령하고 그 내용을 담당 통역사와
함께 검토했으며 회원님과 담당 통역사는 동봉된 문서에 기재된 약관의 내용을
당사와 함께 논의할 기회를 부여받았고, (2) 담당 통역사는 18세 이상이며 회원님
계좌의 약관에 관해 당사와 논의할 때 회원님께서 사용하기로 선택하신 언어와
영어 모두에 능통한 사람이고 Wells Fargo Bank, N.A.(미국)에서 채용하거나
알선한 인력이 아니며, (3) 이 동봉된 문서에 기록된 약관의 내용을 회원님께서
이해하고 그에 동의했음을 Wells Fargo Bank, N.A.(미국) 측에 증명하신다는
의미입니다.
XÁC NHẬN VỀ THÔNG DỊCH VIÊN. PHẦN XÁC NHẬN NÀY ĐƯỢC ÁP DỤNG
NẾU QUÝ VỊ ĐÃ CHỌN THẢO LUẬN VỀ VIỆC MỞ TRƯƠNG MỤC TẠI NGÂN
HÀNG CHÚNG TÔI BẰNG TIẾNG TÂY BAN NHA, TRUNG QUỐC, HÀN QUỐC,
VIỆT NAM HOẶC TAGALOG. Với việc ký đơn xin cấp thẻ tín dụng, sử dụng hay nếu
không thì chấp nhận Thẻ này hay Trương mục liên quan được cấp cho quý vị, quý vị xác
nhận với Wells Fargo Bank, N.A. (chúng tôi) rằng: (1) Quý vị đã nhận được và thảo luận
với thông dịch viên của mình về Thỏa thuận này, và quý vị cũng như thông dịch viên đều
đã có cơ hội trao đổi với chúng tôi về các điều khoản và điều kiện ghi trong những tài
liệu đính kèm này; (2) Thông dịch viên của quý vị phải từ 18 tuổi trở lên, thông thạo cả
tiếng Anh cũng như ngôn ngữ mà quý vị đã chọn sử dụng để trao đổi với chúng tôi về các
điều khoản và điều kiện của Trương mục, và không phải là nhân viên của Bên bán hoặc
được Bên bán giới thiệu ; (3) Quý vị hiểu và đồng ý với nguyên văn nội dung của các điều
khoản và điều kiện được ghi trong những tài liệu đính kèm này.
SERTIPIKASYON NG TAGAPAGSALING-WIKA. ILALAPAT ANG SERTIPIKASYONG
ITO KUNG NAPILI MONG TALAKAYIN ANG PAGBUBUKAS NG ACCOUNT SA AMIN SA
SPANISH, CHINESE, KOREAN, VIETNAMESE, O TAGALOG. Sa paglagda ng aplikasyon
sa credit card, paggamit o kundi man ay pagtanggap ng Card o kaugnay na Account
na ibinigay sa iyo, pinatototohanan mo sa Wells Fargo Bank, N.A. (sa amin) na: (1)
Natanggap mo at tinalakay ang Kasunduang ito sa iyong tagapagsaling-wika at ikaw
at ang iyong tagapagsaling-wika ay nabigyan ng pagkakataong talakayin sa amin ang
mga tuntunin at kundisyon na matatagpuan sa mga nakalakip na dokumentong ito;
(2) Ang iyong tagapagsaling-wika ay hindi mas bata sa 18 taong gulang at lubos na
marunong sa Ingles at sa wika na napili mo para talakayin sa amin ang mga tuntunin
at kundisyon ng iyong Account, at hindi naka-empleyo sa o nakuha sa pamamagitan
ng Mangangalakal (o “Merchant”); (3) Nauunawaan at sinasang-ayunan mo ang mga
tuntunin at kundisyong nakasaad sa mga nakalakip na dokumentong ito ayon sa
nakasulat.
Notices
IN NEW JERSEY: Certain provisions of this Agreement are subject to applicable law. As
a result, they may be void, unenforceable or inapplicable in some jurisdictions. None
of these provisions, however, is void, unenforceable or inapplicable in New Jersey.
IN OHIO: The Ohio laws against discrimination require that all creditors make credit
equally available to all creditworthy customers, and that credit reporting agencies
maintain separate credit histories on each individual upon request. The Ohio Civil Rights
Commission administers compliance with this law.
IN WISCONSIN: If you are married, please contact us immediately at: 1-855-412-2787
and provide us with the name and address of your spouse. We are required by law to
inform your spouse that you have opened an account with us. Also, please note that
no provision of a marital property agreement (including a Statutory Individual Property
Agreement pursuant to Sec. 766.587, Wis. Stat.), unilateral statement classifying income
from separate property under Sec. 766.59, or court decree under Sec. 766.70 adversely
affects the creditor unless the creditor is furnished with a copy of the document prior
to the credit transaction or has actual knowledge of its adverse provisions at the time
the obligation is incurred.
THE MILITARY LENDING ACT NOTICE: Federal law provides important protections
to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the costs of consumer credit to a member of the Armed
Forces and his or her spouse or dependent may not exceed an annual percentage rate
of 36 percent. This rate must include, as applicable to the credit transaction or account:
The costs associated with credit insurance premiums; fees for ancillary products sold in
connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee
charged (other than certain participation fees for a credit card account). Please Note:
There are NO credit insurance premiums, fees for ancillary products, or application
fees with this Account.
You may contact us at 1-844-363-9971 for information about the Military Annual
Percentage Rate and a description of your payment obligation.
The Arbitration Agreement does not apply to you if you are covered by the Military
Lending Act nor do any provisions that waive any right to legal recourse under any
state or federal law to the extent required by the Military Lending Act.

Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Dillard’s Card Services / Wells Fargo Bank, N.A.
P.O. Box 522
Des Moines, IA 50306-0522
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do
we are not required to investigate any potential errors and you may have to pay the
amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain
to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After We Finish Our Investigation, One Of Two Things Will Happen
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount
you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you
as delinquent without also reporting that you are questioning your bill. We must tell
you the name of anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your
credit card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more than
$50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods
or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your Credit Card Account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at:
Dillard’s Card Services / Wells Fargo Bank, N.A.
P.O. Box 522
Des Moines, IA 50306-0522
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may report you as delinquent.

4 of 5

6102OA DILLARDS PL 0221

DILLARD’S CREDIT CARD AGREEMENT
Important Terms of Your Credit Card Account
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
This APR will vary with the market based on the U.S. Prime Rate.
for Purchases
How to Avoid Paying Interest Your due date is at least 23 days after the close of each billing cycle. We will not charge you any interest
on Purchases
on purchases if you pay your entire balance by the due date each month.
Minimum Interest Charge
If you are charged interest, the charge will be no less than $1.00.
For Credit Card Tips from the
To learn more about factors to consider when applying for or using a credit card, visit the website
Consumer Financial Protection of the Consumer Financial Protection Bureau at https://www.consumerfinance.gov/learnmore.
Bureau

24.99%

Fees
Annual Fee
None
Penalty Fees
• Late Payment
Up to $40.00
How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Agreement.
How We Will Calculate Your Late Payment Fee: The fee will be the lesser of the Total Minimum Payment Due or $29.00. For any subsequent
event within a rolling six billing cycle period, the fee will be the lesser of the Total Minimum Payment Due or $40.00.
How We Will Calculate Your Variable APRs: The APR used to figure interest for purchases on your Account is figured by adding a margin of
21.74 percentage points to the U.S. Prime Rate for that Billing Cycle. This rate varies with the market based on the U.S. Prime Rate. See your
Agreement for more details.
The information about the cost of credit described in this Agreement is accurate as of February 2021. This information may have changed
after that date. To find out what may have changed, call us at 1-800-643-8278
ARBITRATION AGREEMENT
Binding Arbitration. You and Wells Fargo Bank, N.A. (the “Bank”), including the Bank’s assignees, agents, employees, officers, directors, shareholders, parent
companies, subsidiaries, affiliates, predecessors and successors, agree that if a Dispute (as defined below) arises between you and the Bank, upon demand by either
you or the Bank, the Dispute shall be resolved by the following arbitration process. However, the Bank shall not initiate an arbitration to collect a consumer debt,
but reserves the right to arbitrate all other disputes with its consumer customers. A “Dispute” is any unresolved disagreement between you and the Bank. It includes
any disagreement relating in any way to your Credit Card Account (“Account”) or related services. It includes claims based on broken promises or contracts, torts, or
other wrongful actions. It also includes statutory, common law and equitable claims. A Dispute also includes any disagreements about the meaning or application
of this Arbitration Agreement. This Arbitration Agreement shall survive the payment or closure of your Account. You understand and agree that you and the Bank
are waiving the right to a jury trial or trial before a judge in a public court. As the sole exception to this Arbitration Agreement, you and the Bank retain the
right to pursue in small claims court any Dispute that is within that court’s jurisdiction. If either you or the Bank fails to submit to binding arbitration following lawful
demand, the party so failing bears all costs and expenses incurred by the other in compelling arbitration.
Arbitration Procedure; Severability. Either you or the Bank may submit a Dispute to binding arbitration at any time notwithstanding that a lawsuit or other
proceeding has been previously commenced. Neither you nor the Bank shall be entitled to join or consolidate disputes by or against others in any arbitration,
or to include in any arbitration any dispute as a representative or member of a class, or to act in a private attorney general capacity. Each arbitration,
including the selection of the arbitrator(s) shall be administered by the American Arbitration Association (AAA), or such other administrator as you and the Bank
may mutually agree to (the AAA or such other mutually agreeable administrator to be referred to hereinafter as the “Arbitration Administrator”), according to the
Commercial Arbitration Rules and the Supplemental Procedures for Consumer Related Disputes (“AAA Rules”). To the extent that there is any variance between the
AAA Rules and this Arbitration Agreement, this Arbitration Agreement shall control. Arbitrator(s) must be members of the state bar where the arbitration is held,
with expertise in the substantive laws applicable to the subject matter of the Dispute. No arbitrator or other party to an arbitration proceeding may disclose the
existence, content or results thereof, except for disclosures of information by a party required in the ordinary course of its business or by applicable law or regulation.
You and the Bank (the “Parties”) agree that in this relationship: (1) The Parties are participating in transactions involving interstate commerce; and (2) This Arbitration
Agreement and any resulting arbitration are governed by the provisions of the Federal Arbitration Act (Title 9 of the United States Code), and, to the extent any
provision of that Act is inapplicable, unenforceable or invalid, the laws of the state of South Dakota. If any of the provisions of this Arbitration Agreement dealing
with class action, class arbitration, private attorney general action, other representative action, joinder, or consolidation is found to be illegal or unenforceable, that
invalid provision shall not be severable and this entire Arbitration Agreement shall be unenforceable.
Rights Preserved. This Arbitration Agreement does not prohibit the Parties from exercising any lawful rights or using other available remedies to preserve, foreclose
or obtain possession of real or personal property; exercise self-help remedies, including setoff and repossession rights; or obtain provisional or ancillary remedies
such as injunctive relief, attachment, garnishment or the appointment of a receiver by a court of competent jurisdiction. Any statute of limitations applicable to
any Dispute applies to any arbitration between the Parties. The provisions of this Arbitration Agreement shall survive termination, amendment or expiration of the
Account or any other relationship between you and the Bank.
Fees and Expenses of Arbitration. Arbitration fees shall be determined by the rules or procedures of the Arbitration Administrator, unless limited by applicable
law. Please check with the Arbitration Administrator to determine the fees applicable to any arbitration you may file. If the applicable law of the state in which you
opened your Account limits the amount of fees and expenses to be paid by you, then no allocation of fees and expenses to you shall exceed this limitation. Unless
inconsistent with applicable law, each of us shall bear the expense of our own attorney, expert and witness fees, regardless of which of us prevails in the arbitration.
Military Lending Act. The Arbitration Agreement does not apply to you if you are covered by the Military Lending Act nor do any provisions that waive any right
to legal recourse under any state or federal law to the extent required by the Military Lending Act. Please see The Military Lending Act Notice in the Agreement for
more information.
5 of 5

6102OA DILLARDS PL 0221

